No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

BRANDON WARD,
Petitioner,
v.
MARK S. INCH,
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent.

On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals
______________________________________________________________________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
______________________________________________________________________________

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

A-1

TABLE OF CONTENTS
Document
1.

Page

April 20, 2021, order of the United States Eleventh Circuit
Court of Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-3

2.

September 10, 2020, Judgment of the United States District Court,
Northern District of Florida . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-11

3.

September 10, 2020, Order of the United States District Court,
Northern District of Florida, adopting Report and
Recommendation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-12

4.

October 10, 2019, Report and Recommendation . . . . . . . . . . . . . . . . . . . . A-14

A-2

USCA11 Case: 20-13797

Date Filed: 04/20/2021

A-3

Page: 1 of 8

USCA11 Case: 20-13797

Date Filed: 04/20/2021

A-4

Page: 2 of 8

USCA11 Case: 20-13797

Date Filed: 04/20/2021

A-5

Page: 3 of 8

USCA11 Case: 20-13797

Date Filed: 04/20/2021

A-6

Page: 4 of 8

USCA11 Case: 20-13797

Date Filed: 04/20/2021

A-7

Page: 5 of 8

USCA11 Case: 20-13797

Date Filed: 04/20/2021

A-8

Page: 6 of 8

USCA11 Case: 20-13797

Date Filed: 04/20/2021

A-9

Page: 7 of 8

USCA11 Case: 20-13797

Date Filed: 04/20/2021

A-10

Page: 8 of 8

Case 3:17-cv-00407-MCR-MJF Document 37 Filed 09/10/20 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
BRANDON WARD
VS

CASE NO. 3:17-CV-407-MCR-MJF

SECRETARY DEPARTMENT OF
CORRECTIONS
JUDGMENT
Pursuant to and at the direction of the Court, it is
ORDERED AND ADJUDGED that the Petitioner take nothing and that the
petition for writ of habeas corpus challenging the judgment of conviction and sentence
in State of Florida v. Brandon Michael Ward, Santa Rosa County Circuit Court Case No.
2006-CF-911, is DENIED.
JESSICA J. LYUBLANOVITS
CLERK OF COURT
September 10, 2020
DATE

/s/ A’Donna Bridges, Deputy Clerk
Deputy Clerk: A’Donna Bridges

A-11

Case 3:17-cv-00407-MCR-MJF Document 36 Filed 09/10/20 Page 1 of 2

Page 1 of 2

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
BRANDON WARD,
Petitioner,
v.

Case No. 3:17cv407-MCR/MJF

SECRETARY, DEPARTMENT OF
CORRECTIONS,
Respondent.
_____________________________________/
ORDER
This cause comes on for consideration upon the Magistrate Judge’s Report
and Recommendation dated October 10, 2019. ECF No. 31. The parties were
furnished a copy of the Report and Recommendation and were afforded an
opportunity to file objections pursuant to Title 28, United States Code, Section
636(b)(1). See ECF No. 35. I have made a de novo determination of those portions
to which an objection was made.
Having considered the Report and Recommendation and all objections thereto
timely filed, I conclude that the Report and Recommendation should be adopted.

A-12

Case 3:17-cv-00407-MCR-MJF Document 36 Filed 09/10/20 Page 2 of 2

Page 2 of 2

Accordingly, it is now ORDERED as follows:
1.

The Magistrate Judge’s Report and Recommendation, ECF No. 31, is

adopted and incorporated by reference in this Order.
2.

The petition for writ of habeas corpus (Doc. 1), challenging the

judgment of conviction and sentence in State of Florida v. Brandon Michael Ward,
Santa Rosa County Circuit Court Case No. 2006-CF-911, is DENIED.
3.

The Clerk of Court is directed to close the file.

4.

A certificate of appealability is DENIED.

DONE AND ORDERED this 10th day of September 2020.

M. Casey Rodgers
M. CASEY RODGERS
UNITED STATES DISTRICT JUDGE

Case No, 3:17cv407-MCR/MJF

A-13

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 1 of 63

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
BRANDON WARD,
Petitioner,
v.

Case No. 3:17-cv-407-MCR/MJF

SECRETARY, DEPARTMENT OF
CORRECTIONS,
Respondent.
/
REPORT AND RECOMMENDATION
Brandon Ward, represented by counsel, has filed a petition for writ of habeas
corpus under 28 U.S.C. § 2254. (Doc. 1). Respondent (“the State”) answered,
providing relevant portions of the state court record. (Doc. 15). Ward replied. (Doc.
27). The undersigned concludes that no evidentiary hearing is required for the
disposition of this matter, and that Ward is not entitled to habeas relief. 1

1

This case was referred to the undersigned to address preliminary matters and to
make recommendations regarding dispositive matters. See N.D. Fla. Loc. R.
72.2(B); see also 28 U.S.C. § 636(b)(1)(B), (C); Fed. R. Civ. P. 72(b).
Page 1 of 63

A-14

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 2 of 63

I.

Background Facts and Procedural History2
In the early morning hours of June 25, 2006, Ward fatally stabbed Joe Hall

and stabbed, but did not kill, Joe Ruinato. The stabbings occurred while Hall and
Ruinato were escorting Ward’s then girlfriend, Samantha Sparling, to her front door
after a party. Ward and Sparling had attended the party together but left separately
after Ward hit Sparling and was chased off the property by other partygoers (not Hall
and Ruinato). Hall and Ruinato drove the intoxicated Sparling home. Once they
arrived at Sparling’s home, Hall and Ruinato exited the car with Sparling and walked
toward the front door. Ward emerged from behind a car in the driveway and walked
quickly toward the group. Ward was angry and “bowed up” with his hands behind
his back. Unbeknownst to Hall and Ruinato, Ward was holding a knife. Hall asked
Ward if he was the guy who hit Ms. Sparling. Ward replied, “Yeah” in addition to,
“Get away from my f---ing girlfriend.” Hall extended his right arm in an attempt to

2

The facts are drawn from the evidence presented at Ward’s second trial, viewed in
the light most favorable to the State. (Doc. 15-36, Ex. 55 through Doc. 15-44, Ex.
62 (trial transcript volumes IV, III, II, VII, VIII, V, VIII and I, as they appear, out of
order, in the electronic record with two volumes numbered “VIII”); Doc. 15-29, Ex.
42 through Doc. 15-33, Ex. 47 (trial transcript volumes IX, X, XI, XII, XIII and VI
as they appear, out of order, in the electronic record)); see also Jackson v. Virginia,
443 U.S. 307 (1979).
Page 2 of 63

A-15

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 3 of 63

stop Ward’s advance. Ward used the slash and thrust technique to fatally stab Hall.
Ward then turned to Ruinato, who was a few steps behind and to the side of Hall,
and stabbed him using the same technique. Neither Hall nor Ruinato had attacked or
threatened Ward. Later, as Ruinato lay on the ground bleeding and informing
Sparling’s mother (Mrs. Zuccarello) that he was hurt, Ward advanced toward
Ruinato with the knife, yelling at Ruinato to “Shut the f--k up.” (Doc. 15-38, Ex. 56
at 375-78). Mrs. Zuccarello instructed her husband to get the knife, and Mr.
Zuccarello successfully knocked the knife from Ward’s hand. The police and EMS
arrived shortly thereafter. Hall was pronounced dead at the scene. Ruinato was
hospitalized for severe injuries.
In Santa Rosa County Circuit Court Case No. 2006-CF-911, a grand jury
indicted Ward for first-degree premeditated murder (Count 1) and attempted firstdegree premeditated murder (Count 2). (Doc. 15-10, Ex. 12 at 2000-2001). 3 Ward’s
defense was self-defense. After a 10-day trial (May 15, 2007 – May 24, 2007), the
jury found Ward guilty of the lesser-included offenses of second-degree murder for

3

Citations to the state court record are to the electronically-filed exhibits attached to
the State’s answer. (Doc. 15). The citation refers to the electronic attachment number
followed by the exhibit number. If a page of an exhibit bears more than one page
number, the court cites the number appearing at the bottom left corner of the page.
Page 3 of 63

A-16

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 4 of 63

the death of Hall and attempted second-degree murder for the stabbing of Ruinato.
(Doc. 15-12, Ex. 15 at 2570-71 (verdict)). The trial court adjudicated Ward guilty
and sentenced him to life in prison for the murder and a concurrent term of 25 years
in prison for the attempted murder. (Doc. 15-13, Ex. 17 at 2914-19). On appeal, the
Florida First District Court of Appeal (“First DCA”) reversed Ward’s convictions
due to errors in the jury instructions and remanded for a new trial. Ward v. State, 12
So. 3d 920 (Fla. 1st DCA 2009).
Ward was re-tried on charges of second-degree murder and attempted seconddegree murder and, again claimed self-defense. Ward’s version was that he was
waiting outside Sparling’s home for her return. When Hall and Ruinato were
walking Sparling toward the house, he overheard the men say they were going to kill
him. Ward stepped into view and waved to Sparling, hoping that she would come
over to him. When Hall saw Ward, Hall allegedly became enraged and came at Ward
yelling that he was going to kill him. Ward grabbed his knife. Hall allegedly hit
Ward hard on the side of the head, and Ward defended himself with the knife. Ward
started toward the house for help, but Ruinato also allegedly came after him and

Page 4 of 63

A-17

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 5 of 63

threatened to kill him. Ruinato purportedly attacked Ward, and Ward again defended
himself with the knife.4
The jury found Ward guilty of manslaughter with a weapon for the death of
Hall (Count 1), and attempted second-degree murder with a weapon, causing severe
injury, for the stabbing of Ruinato (Count 2). (Doc. 15-27, Ex. 37 at 7011-12). The
trial court adjudicated Ward guilty and sentenced him to 30 years of imprisonment
for the manslaughter and a consecutive term of 30 years of imprisonment for the
attempted murder. (Doc. 15-29 at 7393-98). The First DCA affirmed per curiam and
without written opinion. Ward v. State, 90 So. 3d 281 (Fla. 1st DCA 2012) (Table).
Rehearing was denied on June 13, 2012. Id. The United States Supreme Court denied
certiorari on October 29, 2012. Ward v. Florida, 568 U.S. 988, 133 S. Ct. 549 (2012).
On October 2, 2013, Ward filed a counseled motion for postconviction relief
under Florida Rule of Criminal Procedure 3.850 (Doc. 15-1, Ex. 1 at 51-68), which
he later amended. (Doc. 15-1, Ex. 1 at 83-100). The state circuit court conducted an
evidentiary hearing on December 3, 2015. (Doc. 15-4, Ex. 5) (evidentiary hearing
transcript)). On January 12, 2016, the circuit court entered an order denying relief

4

This summary is based on Ward’s initial brief on direct appeal. (Doc. 15-45, Ex.
67 at 16-18).
Page 5 of 63

A-18

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 6 of 63

on all claims. (Doc. 15-4, Ex. 4 at 616-24). Ward appealed, represented by counsel.
(Doc. 15-4, Ex. 4 at 625-26 (notice of appeal); Doc. 15-48, Ex. 79 (initial brief)).
The First DCA affirmed per curiam without written opinion. Ward v. State, 224 So.
3d 217 (Fla. 1st DCA 2017) (Table) (copy at Doc. 15-49, Ex. 82). The mandate
issued May 19, 2017. (Doc. 15-49, Ex. 82).
While his Rule 3.850 proceeding was pending, Ward filed a counseled petition
alleging ineffective assistance of appellate counsel under Florida Rule of Appellate
Procedure 9.141(d). (Doc. 15-46, Ex. 72). The First DCA denied the petition on
April 16, 2015. Ward v. State, 163 So. 3d 616 (Fla. 1st DCA 2015) (copy at Doc.
15-47, Ex. 75).
Ward filed his counseled federal habeas petition on June 14, 2017. (Doc. 1).
The petition raises eight grounds for relief. (Doc. 1). The State asserts that all of
Ward’s claims fail because they are either procedurally defaulted, without merit, or
both. (Doc. 15).
II.

Section 2254 Standard of Review
A federal court “shall not” grant a habeas corpus petition on any claim that

was adjudicated on the merits in state court unless the state court’s decision “was
contrary to, or involved an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court.” 28 U.S.C. § 2254(d)(1). The United
Page 6 of 63

A-19

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 7 of 63

States Supreme Court explained the framework for § 2254 review in Williams v.
Taylor, 529 U.S. 362 (2000).5 Justice O’Connor described the appropriate test:
Under the “contrary to” clause, a federal habeas court may grant the
writ if the state court arrives at a conclusion opposite to that reached by
this court on a question of law or if the state court decides a case
differently than this Court has on a set of materially indistinguishable
facts. Under the “unreasonable application” clause, a federal habeas
court may grant the writ if the state court identifies the correct
governing legal principle from this Court’s decisions but unreasonably
applies that principle to the facts of the prisoner’s case.
Id., 529 U.S. at 412-13 (O’Connor, J., concurring).
Under the Williams framework, the federal court must first determine the
“clearly established Federal law,” namely, “the governing legal principle or
principles set forth by the Supreme Court at the time the state court render[ed] its
decision.” Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003). After identifying the
governing legal principle, the federal court determines whether the state court’s
adjudication is contrary to the clearly established Supreme Court case law. The

5

Unless otherwise noted, references to Williams are to the majority holding, written
by Justice Stevens for the Court (joined by Justices O’Connor, Kennedy, Souter,
Ginsburg, and Breyer) in parts I, III, and IV of the opinion (529 U.S. at 367-75, 39099); and Justice O’Connor for the Court (joined by Justices Rehnquist, Kennedy,
Thomas, and—except as to the footnote—Scalia) in part II (529 U.S. at 403-13).
The opinion of Justice Stevens in Part II was joined by Justices Souter, Ginsburg,
and Breyer.
Page 7 of 63

A-20

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 8 of 63

adjudication is “contrary” only if either the reasoning or the result contradicts the
relevant Supreme Court cases. See Early v. Packer, 537 U.S. 3, 8 (2002) (“Avoiding
th[e] pitfalls [of § 2254(d)(1)] does not require citation to our cases—indeed, it does
not even require awareness of our cases, so long as neither the reasoning nor the
result of the state-court decision contradicts them.”).
If the “contrary to” clause is not satisfied, the federal court determines whether
the state court “unreasonably applied” the governing legal principle set forth in the
Supreme Court’s cases. The federal court defers to the state court’s reasoning unless
the state court’s application of the legal principle was “objectively unreasonable” in
light of the record before the state court. See Williams, 529 U.S. at 409; Holland v.
Jackson, 542 U.S. 649, 652 (2004). “[E]ven a strong case for relief does not mean
the state court’s contrary conclusion was unreasonable.” Harrington v. Richter, 562
U.S. 86, 102 (2011).
Section 2254(d) also allows habeas relief for a claim adjudicated on the merits
in state court where that adjudication “resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d)(2). The “unreasonable determination of the
facts” standard is implicated only to the extent the validity of the state court’s
ultimate conclusion is premised on unreasonable fact finding. See Gill v. Mecusker,
Page 8 of 63

A-21

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 9 of 63

633 F.3d 1272, 1292 (11th Cir. 2011). As with the “unreasonable application”
clause, the federal court applies an objective test. See Miller-El v. Cockrell, 537 U.S.
322, 340 (2003) (holding that a state court decision based on a factual determination
“will not be overturned on factual grounds unless objectively unreasonable in light
of the evidence presented in the state court proceeding.”). “The question under
AEDPA is not whether a federal court believes the state court’s determination was
incorrect but whether that determination was unreasonable—a substantially higher
threshold.” Schriro v. Landrigan, 550 U.S. 465, 473 (2007) (citing Williams, 529
U.S. at 410). AEDPA also requires federal courts to “presume the correctness of
state courts’ factual findings unless applicants rebut this presumption with ‘clear and
convincing evidence.’” Landrigan, 550 U.S. at 473-74 (quoting 28 U.S.C. §
2254(e)(1)).
The Supreme Court has often emphasized that a state prisoner’s burden under
§ 2254(d) is “difficult to meet, . . . because it was meant to be.” Richter, 562 U.S.
at 102. The Court elaborated:
As amended by AEDPA, § 2254(d) stops short of imposing a complete
bar on federal-court relitigation of claims already rejected in state
proceedings. Cf. Felker v. Turpin, 518 U.S. 651, 664, 116 S. Ct. 2333,
135 L.Ed.2d 827 (1996) (discussing AEDPA’s “modified res judicata
rule” under § 2244). It preserves authority to issue the writ in cases
where there is no possibility fairminded jurists could disagree that the
state court’s decision conflicts with this Court’s precedents. It goes no
Page 9 of 63

A-22

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 10 of 63

further. Section 2254(d) reflects the view that habeas corpus is a “guard
against extreme malfunctions in the state criminal justice systems,” not
a substitute for ordinary error correction through appeal. Jackson v.
Virginia, 443 U.S. 307, 332, n. 5, 99 S. Ct. 2781, 61 L. Ed. 2d 560
(1979) (Stevens, J., concurring in judgment). As a condition for
obtaining habeas corpus from a federal court, a state prisoner must
show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility
for fairminded disagreement.
Richter, 562 U.S. at 102-03 (emphasis added).
A federal court may conduct an independent review of the merits of a
petitioner’s claim only if it first finds that the petitioner satisfied § 2254(d). See
Panetti v. Quarterman, 551 U.S. 930, 954 (2007). Even then, the writ will not issue
unless the petitioner shows that he is in custody “in violation of the Constitution or
laws and treaties of the United States.” 28 U.S.C. § 2254(a).
III.

Discussion
Ground One

Defense counsel rendered ineffective assistance of
counsel by failing to retain a ‘use of force’ expert.

Ward claims that his trial counsel was ineffective for failing to retain Roy
Bedard as a “use of force” expert to support Ward’s defense that he stabbed Hall and
Ruinato in self-defense. The parties agree that Ward presented this claim to the state
courts as Ground One of his amended Rule 3.850 motion; that the state circuit court
denied relief on the merits in a reasoned order; and that the First DCA summarily
Page 10 of 63

A-23

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 11 of 63

affirmed without explanation. (Doc. 1 at 5; Doc. 15 at 15-20). The State asserts that
Ward is not entitled to habeas relief because he fails to meet § 2254(d)’s demanding
standard. (Doc. 15 at 21-27).
A.

The First DCA’s summary affirmance is an “adjudication on
the merits” entitled to deference under 28 U.S.C. § 2254(d).

Ward’s habeas counsel asserts that this court “should utilize the de novo
standard to review [Ward’s] claims because the Florida appellate courts issued per
curiam decisions (i.e., the Florida appellate courts did not issue written opinions).”
A summary opinion, Ward contends, is not an adjudication on the merits. (Doc. 1 at
17). Ward relies on the district court’s analysis in Shelton v. Sec’y, Dep’t of Corr.,
802 F. Supp. 2d 1289, 1297 (M.D. Fla. 2011), to support this position. (See Doc. 1
at 17).
The State asserts that the Eleventh Circuit flatly rejected Ward’s position
seven years ago when it reversed the district court in Shelton, supra. (Doc. 15 at 2021 (citing Shelton v. Sec’y, Dep’t of Corr., 691 F.3d 1348, 1353 (11th Cir. 2012)).
The State is correct.
In Richter, supra, the United States Supreme Court held:
When a federal claim has been presented to a state court and the state
court has denied relief, it may be presumed that the state court
adjudicated the claim on the merits in the absence of any indication or
state-law procedural principles to the contrary. The presumption may
Page 11 of 63

A-24

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 12 of 63

be overcome when there is reason to think some other explanation for
the state court’s decision is more likely.
Richter, 562 U.S. at 99-100 (citing Ylst v. Nunnemaker, 501 U.S. 797, 803 (1991));
see also Richter at 100 (confirming that “§ 2254(d) does not require a state court to
give reasons before its decision can be deemed to have been ‘adjudicated on the
merits’”).
The district court in Shelton concluded that Richter’s presumption was
rebutted, because the First DCA’s decisions in Shelton’s case were “one-word
summary affirmances” and the Florida Supreme Court held in 1983 that a per curiam
affirmance has no precedential value and is not an adjudication on the merits.
Shelton, 802 F. Supp. 2d at 1297 (citing Dep’t of Legal Affairs v. Dist. Court of
Appeal, 5th Dist., 434 So. 2d 310 (Fla.1983)). The Eleventh Circuit disagreed:
The district court is only half-right, and not on the half that counts for
federal habeas purposes. The Florida Supreme Court never held that a
‘per curiam appellate court decision with no written opinion’ is not an
adjudication on the merits; all it did was hold that the decision holds no
precedential value for future cases.
Shelton, 691 F.3d at 1353. The Eleventh Circuit held in Shelton that the mere fact
that a Florida appellate court affirms a lower court’s merits ruling in a per curiam
decision without written opinion does not rebut Richter’s presumption. Id. at 1353
(“Here, the state court on direct appeal did not apply a procedural bar, and we are
Page 12 of 63

A-25

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 13 of 63

therefore compelled to presume that the court rendered an ‘adjudication on the
merits’ entitled to AEDPA deference.”). In so holding, the Eleventh Circuit noted
that Petitioner Shelton made no attempt to rebut Richter’s presumption by any other
showing. Id. at 1353 nn.31, 37.
The Eleventh Circuit’s decision in Shelton, 691 F.3d at 1353, is binding on
this court. Because Ward’s argument does not rebut Richter’s presumption, and
because that is the only attempt Ward makes to rebut the presumption, this court is
compelled to conclude that the First DCA’s summary decision in Ward’s Rule 3.850
appeal is an “adjudication on the merits” entitled to deference under 28 U.S.C. §
2254(d).
B.

Clearly Established Federal Law

The Supreme Court follows a two-pronged test for evaluating claims of
ineffective assistance of counsel. See Strickland v. Washington, 466 U.S. 668 (1984).
The petitioner must show (1) his counsel’s performance was constitutionally
deficient, and (2) the deficient performance prejudiced him. See id. at 687. “First,
petitioner must show that ‘counsel’s representation fell below an objective standard
of reasonableness.’ Second, petitioner must show that ‘there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding

Page 13 of 63

A-26

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 14 of 63

would have been different.’” Darden v. Wainwright, 477 U.S. 168, 184 (1986)
(quoting Strickland, 466 U.S. at 694).
“Judicial scrutiny of counsel’s performance must be highly deferential,” and
courts should make every effort to “eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.” Strickland, 466 U.S. at 689. Trial
counsel is “strongly presumed to have rendered adequate assistance and made all
significant decisions in the exercise of reasonable professional judgment.” Id. at 690.
The burden to overcome that presumption and show that counsel’s performance was
deficient “rests squarely on the defendant.” Burt v. Titlow, 571 U.S. 12, 22-23
(2013); Cullen v. Pinholster, 563 U.S. 170, 189 (2011) (“To overcome that
presumption, a defendant must show that counsel failed to act reasonably
considering all the circumstances.” (quotation marks and alterations omitted)).
Strickland’s prejudice prong requires a defendant to establish a “reasonable
probability” of a different result. See Strickland, 466 U.S. at 694. A reasonable
probability is one that sufficiently undermines confidence in the outcome. Id. “The
likelihood of a different result must be substantial, not just conceivable.” Richter,
562 U.S. at 112.

Page 14 of 63

A-27

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 15 of 63

When a district court considers a habeas petition, the state court’s findings of
historical facts in the course of evaluating an ineffectiveness claim are subject to the
presumption of correctness, while the performance and prejudice components are
mixed questions of law and fact. See Strickland, 466 U.S. at 698. “Surmounting
Strickland’s high bar is never an easy task.” Padilla v. Kentucky, 559 U.S. 356, 371
(2010). “Establishing that a state court’s application of Strickland was unreasonable
under § 2254(d) is all the more difficult.” Richter, 562 U.S. at 105 (citations
omitted). The Supreme Court explained:
The standards created by Strickland and § 2254(d) are both “highly
deferential,” and when the two apply in tandem, review is “doubly” so.
The Strickland standard is a general one, so the range of reasonable
applications is substantial. Federal habeas courts must guard against the
danger of equating unreasonableness under Strickland with
unreasonableness under § 2254(d). When § 2254(d) applies, the
question is not whether counsel’s actions were reasonable. The question
is whether there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.
Id. (citations omitted).
C.

Section 2254 Review of State Court’s Decision

Where, as here, there has been one reasoned state judgment rejecting a federal
claim followed by a later unexplained order upholding that judgment, the federal
habeas court “look[s] through the unexplained decision to the last related state-court
decision that does provide a relevant rationale [and] presume[s] that the unexplained
Page 15 of 63

A-28

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 16 of 63

decision adopted the same reasoning.” Wilson v. Sellers, — U.S. —, 138 S. Ct. 1188,
1192 (2018) (internal quotation marks omitted). This court, therefore, presumes that
the First DCA rejected Ward’s claim for the reasons provided in the state circuit
court’s order.
The state circuit court held an evidentiary hearing on this claim and denied
relief. (Doc. 15-4, Ex. 4 at 616-24). The order related these historical facts:
Background
A review of the record shows that it was uncontested at trial that
the Defendant, Brandon Ward, stabbed Joe Hall and Joseph Ruinato.
The stabbings caused Hall’s death and gravely injured Ruinato, who
survived due to subsequent medical intervention. In addition to
Ruinato, the stabbing was witnessed by two young women, Samantha
Sparling, who was the Defendant’s girlfriend at the time, and Lacey
Moores. At trial, the defense contended that Ward acted in self-defense.
The jury found the Defendant guilty of manslaughter as to the death of
Hall and guilty of attempted second degree murder as to the stabbing of
Ruinato. The Defendant was sentenced to a total of sixty years in state
prison. The appellate court affirmed the Defendant’s judgment and
sentence. Ward v. State, 90 So. 3d 281 (Fla. 1st DCA 2012), cert.
denied, Ward v. Florida, 133 S. Ct. 549 (2012).
(Ex. 4 at 616-17).
The order identified the controlling legal standard as the Strickland standard
(Ex. 4 at 617-18), and rejected Ward’s claim for these reasons:
The Defendant claims that he was denied the effective assistance
of counsel due to his trial counsel’s failure to “retain a use of force
expert (and failing to present the expert as a defense witness at trial).”
Page 16 of 63

A-29

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 17 of 63

The Court finds that this sort of testimony would not have been
admissible evidence. In State v. Andrews, the Fourth District Court of
Appeal discussed similar expert testimony as to whether use of force
was justified. In that case:
The State relied upon State Attorney Barry Krischer’s
expert testimony that the officer’s actions were
appropriate and his use of force was justified.
Generally, expert testimony is admissible if the disputed
issue is beyond the ordinary understanding of the jury. A
trial court’s decision to allow expert testimony is reviewed
for abuse of discretion. However, that discretion is not
boundless, and expert testimony should be excluded
where the facts testified to are of such a nature as not
to require any special knowledge or experience in
order for the jury to form conclusions from the facts.
Whether Officer MacVane was standing in harm’s
way and therefore was justified in discharging his
firearm in defending himself from the oncoming
vehicle was for the jury to determine. This
determination could have been made from the
testimony of Officer MacVane, Andrews, Tyra
Drummer and the expert’s testimony on the physical
evidence. There was no basis for the State Attorney to
give his opinion on the matter.
The State’s argument that Krischer’s opinion was proper
because he was not the prosecutor on the case and was
called to testify as a factual witness is not persuasive. He
was not a factual witness. He was not an eye witness, he
specifically testified that he did not perform any tests
at the crime scene, and he gave no testimony regarding
the physical evidence at the scene.
Thus, the trial court abused its discretion when it overruled
defense counsel’s objection to the testimony.
Page 17 of 63

A-30

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 18 of 63

State v. Andrews, 820 So. 2d 1016, 1025 (Fla. 4th DCA 2002) (citations
omitted) (emphasis added).
Similarly, Mr. Bedard was not an eye witness and would not
otherwise be a factual witness. “Because jurors are capable of
determining whether the use of force in self-defense is reasonable,
expert testimony bearing on that issue is generally inadmissible.” State
v. Salazar, 898 P.2d 982 (Ariz. App. 1995). The Seventh Circuit Court
of Appeals has explained regarding “use of force” experts that:
As referred to above, the question of whether a police
officer has used excessive force in arresting a suspect is a
fact-intensive inquiry turning on the reasonableness of the
particular officer’s actions in light of the particular facts
and circumstances of the situation faced. What is
reasonable under any particular set of facts is “not
capable of precise definition or mechanical
application.” Accordingly, whatever insight Inspector
Lukas and Sgt. Campbell might have had into whether or
why Officer Hespe used excessive force would have been
of little value except as to possibly causing confusion and
bore a substantial risk of prejudice. The jury, after
having heard all of the evidence presented, was in as
good a position as the experts to judge whether the
force used by the officers to subdue Thompson was
objectively reasonable given the circumstances in this
case. Introducing two experts to testify that Officer
Hespe used excessive force would have induced the
jurors to substitute their own independent conclusions
for that of the experts. In other words, they would have
been “induced to decide the case on an improper basis . . .
rather than on the evidence presented . . . ,” which is
precisely why the evidence should have been excluded.
Thompson v. City of Chicago, 472 F.3d 444, 458 (7th Cir. 2006)
(citations omitted) (emphasis added).
Page 18 of 63

A-31

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 19 of 63

The Court finds Mr. Bedard’s testimony to be similar to
proffered testimony analyzed by Fourth District Court of Appeal in
Mitchell v. State, 965 So. 2d 246 (Fla. 4th DCA 2007). The appellate
court explained:
Dr. Edney’s proffered testimony boils down to a statement
that, based upon what Mitchell told him, Mitchell
reasonably believed that he had to defend himself or be
killed. There is nothing in his testimony which concerns a
subject beyond the common understanding of the average
person. If the jury believed Mitchell, then it would find
that he acted in self-defense. Thus, the issue is not one
on which expert testimony should be permitted. It
merely allowed an expert witness to bolster Mitchell’s
credibility which is improper. Acosta v. State, 798 So.2d
809, 810 (Fla. 4th DCA 2001). And it improperly
introduces Mitchell's self-serving statements which are
otherwise inadmissible hearsay. See Lott v. State, 695
So.2d 1239, 1243 (Fla.1997).
Mitchell v. State, 965 So. 2d 246, 251 (Fla. Dist. Ct. App. 2007)
(emphasis added).
Because the proposed expert witness testimony would have been
inadmissible, defense counsel cannot be considered “deficient” for not
presenting such evidence at trial. “Trial counsel cannot be deemed
ineffective for failing to present inadmissible evidence.” Owen v. State,
986 So. 2d 534, 546 (Fla. 2008).
Furthermore, Leo Thomas, Defendant’s trial counsel, testified as
to this issue. He testified that [at] the time of the trial he had not ever
been aware of the existence of a “force of use [sic] expert” and he
believed, even now, that such testimony would be inadmissible. The
Court would note that “[s]trategic decisions that are reasonable under
the norms of professional conduct do not constitute the ineffective
assistance of counsel.” Bonner v. State, 981 So. 2d 499, 502 (Fla. 3d
Page 19 of 63

A-32

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 20 of 63

DCA 2008). “Tactical decisions generally are for counsel to make and
will not be second guessed unless shown to be patently unreasonable.”
Roesch v. State, 627 So. 2d 57, 58 n.3 (Fla. 2d DCA 1993) (emphasis
added); see also Haliburton v. Singletary, 691 So. 2d 466, 471 (Fla.
1997). Indeed, as one federal court put it, “[t]he decision whether to call
any witnesses on behalf of the defendant, and if so which witnesses to
call, is a tactical decision of the sort engaged in by defense attorneys in
almost every trial.” United States v. Nersesian, 824 F.2d 1294, 1321
(2d Cir. 1987).
The Court finds it is objectively reasonable for an attorney to
conclude that testimony of a “use of force” expert would be
inadmissible and not call such a witness to testify. Because the decision
not to call a “use of force expert” is not “patently unreasonable,” this
claim of ineffective assistance of counsel fails.
(Ex. 4 at 619-21).
Ward argues that the state court’s application of Strickland was unreasonable,
because the court wrongly concluded that Mr. Bedard’s testimony as a “use of force”
expert was inadmissible. (Doc. 1 at 20-21). Ward discusses Florida’s standard for
determining the admissibility of expert testimony and concludes that Bedard’s
testimony met that standard. Ward notes that Bedard previously had been qualified
as a use-of-force expert pursuant to the Frye standard (the standard Florida uses),
and that Bedard was accepted as a “use of force” expert in at least one criminal case
in Florida prior to Ward’s 2010 trial. (Doc. 1 at 21-29; Doc. 27 at 1-4).
The State maintains that the state court’s determination—that Bedard’s
proposed expert testimony was inadmissible under Florida law—is a state-law
Page 20 of 63

A-33

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 21 of 63

determination that this court should not second guess. Because counsel cannot be
deficient for failing to offer evidence that would not have been admitted, the state
court’s decision was consistent with Strickland. (Doc. 15 at 26-27).
Ward’s claim that the state court unreasonably applied Strickland depends
upon this court determining that no fairminded jurist could agree that counsel’s
performance was not deficient, but first this court would have to conclude that the
state court misinterpreted state law on the admissibility of the proffered expert
testimony. In Herring v. Sec’y, Dep’t of Corr., 397 F.3d 1338 (11th Cir. 2005), the
Eleventh Circuit addressed a similar circumstance. Petitioner Herring argued that his
trial counsel was ineffective for failing to make an objection, based on state law, to
the introduction of evidence at the penalty phase of his trial. The state court
concluded that Herring’s proposed objection would have been overruled and,
therefore, counsel was not deficient. Id. at 1354-55. The Eleventh Circuit held:
The Florida Supreme Court already has told us how the issues would
have been resolved under Florida state law had [Herring’s counsel]
done what Herring argues he should have done. . . . It is a “fundamental
principle that state courts are the final arbiters of state law, and federal
habeas courts should not second-guess them on such matters.”
Id. (quoting Agan v. Vaughn, 119 F.3d 1538, 1549 (11th Cir.1997)).
Here, as in Herring, the state courts have already answered the question of
what would have happened had trial counsel offered Bedard’s proposed expert
Page 21 of 63

A-34

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 22 of 63

testimony—it would not have been admitted under Florida law. Because this court
will not “second guess” the state courts’ conclusion that the evidence was
inadmissible under Florida’s evidentiary standards, Ward cannot demonstrate
counsel was deficient for failing to offer it. See Herring at 1355; Bradshaw v. Richey,
546 U.S. 74, 76 (2005) (“We have repeatedly held that a state court’s interpretation
of state law . . . binds a federal court sitting in habeas corpus.” (citations omitted));
Callahan v. Campbell, 427 F.3d 897, 932 (11th Cir. 2005) (declining to review a
state court’s interpretation of state law, and holding that where a habeas petitioner
claimed counsel was ineffective for failing to argue that certain evidence was
inadmissible under Alabama law, and the Alabama state court already had concluded
that the evidence was admissible under state law so the objection would have been
overruled, the petitioner’s ineffective assistance claim necessarily failed).
The state court’s rejection of Ward’s claim was not contrary to, and did not
involve an unreasonable application of, the Strickland standard. Nor was the
decision based on an unreasonable determination of the facts. Ward is not entitled to
habeas relief on Ground One.

Page 22 of 63

A-35

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 23 of 63

Ground Two

Defense counsel was ineffective for failing to object to
the jury’s inconsistent verdicts.

Ward next claims that trial counsel was ineffective for failing to object to the
jury’s verdicts as inconsistent. Ward’s proposed objection is based on the state-law
principle that “True inconsistent verdicts are those in which an acquittal on one count
negates a necessary element for conviction on another count.” (Doc. 1 at 31 (quoting
State v. Kelley, 109 So. 3d 316, 317 (Fla. 2d DCA 2013)). Ward asserts that the
jury’s finding that he committed attempted second-degree murder when he stabbed
Ruinato (Count 2) is legally inconsistent with its finding that he committed
manslaughter when he fatally stabbed Hall (Count 1). Ward explains:
Petitioner Ward’s state of mind was the same for both counts – as the
actions that formed the bases for both counts occurred simultaneously.
The mens rea/state of mind for manslaughter is less than the mens
rea/state of mind for second-degree murder. . . . By finding Petitioner
Ward guilty of the lesser offense of manslaughter for count 1 – the jury
determined that Petitioner Ward did not act with a depraved mind – the
mens rea/state of mind for second-degree murder . . . . This element
(i.e., that Petitioner Ward acted with a depraved mind) is also an
essential element of the attempted second-degree murder count charged
in count 2. “[A]s a result, the acquittal on the [second-degree murder]
charge negated the necessary element of [intent] in the [attempted
second-degree murder] count, making the two legally interlocking.”
Kelley, 109 So. 3d at 318 (citations omitted).
(Doc. 1 at 31-32) (alterations in original).

Page 23 of 63

A-36

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 24 of 63

The parties agree that Ward presented this claim to the state courts as Ground
Three of his amended Rule 3.850 motion; that the state circuit court denied relief on
the merits in a reasoned order; and that the First DCA summarily affirmed without
explanation. (Doc. 1 at 5; Doc. 15 at 28-30). The State asserts that Ward is not
entitled to habeas relief because he fails to meet § 2254(d)’s demanding standard.
(Doc. 15 at 30-36).
A.

Clearly Established Federal Law

The clearly established federal law governing claims of ineffective assistance
of counsel is the Strickland standard discussed above.
B.

Section 2254 Review of State Court’s Decision

The First DCA’s summary affirmance is an “adjudication on the merits”
entitled to deference under 28 U.S.C. § 2254(d). See Richter, 562 U.S. at 99, 100.
Ward’s reliance on the district court’s erroneous ruling in Shelton, supra, does not
rebut the Richter presumption. See discussion supra Ground One, Part A.
Consistent with Wilson, supra, this court “look[s] through” the First DCA’s
unexplained decision to the circuit court’s final order denying postconviction relief
and presumes that the First DCA adopted the same reasoning. Wilson, 138 S. Ct. at
1192.

Page 24 of 63

A-37

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 25 of 63

The state circuit court correctly identified Strickland as the controlling legal
standard (Ex. 4 at 617-18), and rejected Ward’s claim for these reasons:
The Defendant claims that his counsel was ineffective for failing
to object to his dual convictions of manslaughter and attempted second
degree murder. However, the Defendant’s counsel was not deficient for
failing to challenge the purportedly inconsistent verdicts, as the verdicts
were legally permissible.
True, the verdicts could perhaps be considered to be factually
inconsistent given the two crimes concern differing states of mind.
However, factually inconsistent verdicts are permissible in Florida. See
Flores v. State, 974 So. 2d 556 (Fla. 5th DCA 2008).
As the Florida Supreme Court has explained, “[o]ur cases
concerning ‘truly inconsistent’ verdicts come into play when verdicts
against one defendant refer to legally interlocking charges.” State v.
Connelly, 748 So. 2d 248, 252 (Fla. 1999) (emphasis retained). The
Defendant’s dual convictions of manslaughter and attempted second
degree murder involving two separate victims are not “truly
inconsistent.”
The Defendant’s counsel had no legal cause to object to the
verdicts. Therefore, the Court finds that this claim is without merit.
“Trial counsel cannot be deemed ineffective for failing to raise
meritless claims or claims that had no reasonable probability of
affecting the outcome of the proceeding.” Teffeteller v. Dugger, 734 So.
2d 1009, 1023 (Fla. 1999) (emphasis added).
(Ex. 4 at 622).
As with Ground One, supra, the state court already has answered the question
of what would have happened had trial counsel made Ward’s state-law-based
objection of inconsistent verdicts—the objection would have been overruled on the
Page 25 of 63

A-38

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 26 of 63

ground that the verdicts were not truly inconsistent under Florida state law. 6 This
court will not second-guess the state court’s interpretation of state law. Herring, 397
F.3d at 1354-55; Richey, 546 U.S. at 76; Callahan, 427 F.3d at 932. Because counsel
had no basis to object, the state court’s rejection of Ward’s ineffective assistance
claim is a reasonable application of the Strickland standard. Meders v. Warden, Ga.
Diagnostic Prison, 911 F.3d 1335, 1354 (11th Cir. 2019) (“It is not ineffective
assistance of counsel to fail to make an objection that is not due to be sustained.”);
Green v. Georgia, 882 F.3d 978, 987 (11th Cir. 2018) (holding that habeas petitioner
could not possibly have suffered Strickland prejudice where the objection counsel

6

An “inconsistent verdicts” argument raises no federal constitutional concerns. See,
e.g., Dunn v. United States, 284 U.S. 390, 393 (1932) (holding that a criminal
defendant convicted by a jury on one count cannot attack the conviction because it
was inconsistent with the verdict of acquittal on another count; “Consistency in the
verdict is not necessary”); United States v. Powell, 469 U.S. 57, 64-65 (1984)
(recognizing the continued validity of the Dunn rule; “As the Dunn Court noted,
where truly inconsistent verdicts have been reached, ‘[t]he most that can be said . . .
is that the verdict shows that either in the acquittal or the conviction the jury did not
speak their real conclusions, but that does not show that they were not convinced of
the defendant’s guilt.’ The rule that the defendant may not upset such a verdict
embodies a prudent acknowledgment of a number of factors.” (quoting Dunn, 284
U.S. at 393)); Harris v. Rivera, 454 U.S. 339, 345 (1981) (denying state prisoner’s
habeas corpus challenge to conviction where prisoner alleged denial of due process
due to inconsistent bench trial verdicts; holding that prisoner “has no constitutional
ground to complain,” and that “[i]nconsistency in a verdict is not a sufficient reason
for setting it aside.” (citations omitted)).
Page 26 of 63

A-39

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 27 of 63

failed to make would have been futile). Petitioner is not entitled to habeas relief on
Ground Two.
Ground Three

Appellate counsel was ineffective for failing to argue on
direct appeal that the state trial court erred by
preventing Petitioner Ward from presenting witnesses
to testify regarding one of the alleged victim’s
character trait of violence.

Ward claims that his appellate counsel was ineffective for failing to argue on
direct appeal that the trial court erred in excluding the testimony of a witness (Kelly
Crain), who would have testified concerning Victim Joseph Hall’s alleged “character
trait of violence toward men who allegedly abuse women.” (Doc. 1 at 33-41). Ward
asserts that Crain’s testimony was admissible reputation evidence under Florida law
and that it supported his theory that he stabbed Hall in self-defense. Ward explains
that Ms. Crain’s testimony would have corroborated his version of events, namely,
that after Sparling told Hall that Ward hit her, Hall “acted consistent with his
character trait and attacked Petitioner Ward—because Mr. Hall had a character trait
of violence towards men who allegedly abuse women.” (Id. at 43). Ward alleges that
the issue was properly preserved during trial, and that had appellate counsel raised
it on direct appeal, there is a reasonable probability that the First DCA would have
reversed his manslaughter conviction and remanded for a new trial. (Id. at 43-44).

Page 27 of 63

A-40

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 28 of 63

The parties agree that Ward presented this claim to the First DCA as Ground
Two of his petition alleging ineffective assistance of appellate counsel, and that the
First DCA denied relief on the merits without explanation. (Doc. 1 at 33, 44; Doc.
15 at 36-37). The State asserts that Ward is not entitled to federal habeas relief
because he fails to meet § 2254(d)’s demanding standard. (Doc. 15 at 37-49).
A.

The First DCA’s decision is an “adjudication on the merits”
entitled to deference under 28 U.S.C. § 2254(d).

The First DCA denied Ward’s claim in a one sentence opinion: “The petition
alleging ineffective assistance of appellate counsel is denied on the merits.” Ward v.
State, 163 So. 3d 616 (Fla. 1st DCA 2015) (copy at Doc. 15-47, Ex. 75). Ward relies
on the federal district court’s erroneous ruling in Shelton, 802 F. Supp. 2d at 1297,
to argue that the First DCA’s decision does not qualify as an “adjudication on the
merits” under 28 U.S.C. § 2254, because it is a per curiam decision. (Doc. 1 at 1719). As discussed above, Ward’s position is contrary to the Eleventh Circuit’s
subsequent ruling in Shelton, 691 F.3d at 1353, and is also contrary to the First
DCA’s unambiguous language “denied on the merits.” The First DCA’s opinion is
an “adjudication on the merits” entitled to deference under 28 U.S.C. § 2254(d). See
Richter, 562 U.S. at 99, 100.

Page 28 of 63

A-41

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 29 of 63

B.

Clearly Established Federal Law

An ineffective assistance of appellate counsel claim is governed by the twopart test announced in Strickland, supra. See Smith v. Robbins, 528 U.S. 259, 285
(2000) (holding that Strickland is the proper standard for evaluating a claim that
appellate counsel was ineffective). The petitioner must show that (1) appellate
counsel’s performance was objectively unreasonable, and (2) there is a reasonable
probability that, but for counsel’s unreasonable performance, petitioner would have
prevailed in his appeal. Smith v. Robbins, 528 U.S. at 285-86.
In Davila v. Davis, — U.S. —, 137 S. Ct. 2058 (2017), the United States
Supreme Court reiterated these familiar principles governing review of an appellate
attorney’s performance:
Effective appellate counsel should not raise every nonfrivolous
argument on appeal, but rather only those arguments most likely to
succeed. Declining to raise a claim on appeal, therefore, is not deficient
performance unless that claim was plainly stronger than those actually
presented to the appellate court.
Id. at 2067 (citing Smith v. Murray, 477 U.S. 527, 536 (1986), Jones v. Barnes, 463
U.S. 745, 751-53 (1983), and Smith v. Robbins, 528 U.S. at 288).
C.

Section 2254 Review of State Court’s Decision

Where, as here, the last adjudication on the merits provides no reasoned
opinion, federal courts review that decision using the test announced in Richter. The
Page 29 of 63

A-42

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 30 of 63

Richter test provides: “Where a state court’s decision is unaccompanied by an
explanation,” a petitioner’s burden under section 2254(d) is to “show[ ] there was
no reasonable basis for the state court to deny relief.” Richter, 562 U.S. at 98.
[A] habeas court must determine what arguments or theories supported
or, as here, could have supported, the state court’s decision; and then it
must ask whether it is possible fairminded jurists could disagree that
those arguments or theories are inconsistent with the holding in a prior
decision of [the United States Supreme] Court.
Id. at 102.
One argument that could have supported the First DCA’s decision is that Ward
failed to establish that the issue concerning Ms. Crain’s testimony was plainly
stronger than the seven issues that appellate counsel actually raised in Ward’s direct
appeal. Appellate counsel raised these issues:
1.
The trial court erred in giving a jury instruction on the justifiable
use of deadly force that improperly imposed a duty to retreat.
2.
The trial court erred in giving an erroneous jury instruction on
justifiable use of deadly force that deprived Ward of the presumption
of fear when the victim has forcefully removed or attempted to remove
another person from a dwelling or residence.
3.
The trial court erred in failing to instruct the jury on Florida’s
“Stand Your Ground” immunity.
4.
Trial court erred in instructing the jury on the lesser included
offense of attempted voluntary manslaughter where Appellant was
convicted of attempted second degree murder and the lesser offense
included an erroneous “intent to kill” element.
Page 30 of 63

A-43

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 31 of 63

5.
The trial court erred in denying the motion for judgment of
acquittal on the attempted second degree murder charged in Count Two,
since the evidence was insufficient to prove the elements of second
degree murder.
6.

The trial court erred in imposing consecutive sentences.

7.
The trial court erred in not declaring a mistrial when the
prosecutor made improper remarks in closing argument.
(Doc. 15-45, Ex. 67).
Ward argues that appellate counsel’s performance was deficient, because the
trial court erroneously excluded the evidence and the issue was preserved for
appellate review. (Doc. 1 at 33-44 (habeas petition); see also (Doc. 15-46, Ex. 72
(state petition alleging ineffective assistance of appellate counsel)). Ward fails to
demonstrate, though, that the reputation evidence claim was plainly stronger than
any of the issues appellate counsel raised. Indeed, the record demonstrates that the
reputation evidence argument was a relatively weak one.
In Florida, “[r]eputation evidence is just that – evidence of one’s reputation in
the community for a particular character trait. It is not the personal opinion of the
testifying witness or evidence of specific acts of [the alleged trait].” Johnson v. State,
108 So. 3d 707, 709-10 (Fla. 5th DCA 2013), review denied, 133 So. 3d 526 (Fla.
2014) (emphasis added). “Reputation evidence must be sufficiently broad-based and
Page 31 of 63

A-44

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 32 of 63

should not be predicated on mere personal opinion, fleeting encounters, or rumor.”
Lott, 695 So. 2d at 1242.
Reputation evidence “is hearsay by its very nature” and, therefore, its
admission is controlled by Florida’s hearsay exception for reputation testimony,
Section 90.803(21), Florida Statutes. Johnson, 108 So. 3d at 710. “The proponent of
reputation evidence must ‘lay the foundation that the witness is aware of the person’s
reputation in the community.’” Id. at 710 (quoting Charles W. Ehrhardt, Florida
Evidence § 609.1 (2012)). “The party opposing the introduction of the evidence has
the right to test the sufficiency of the foundation through cross-examination.”
Johnson, 108 So. 3d at 710 (citing Ehrhardt, supra, § 609.1). The trial judge must
make the preliminary factual determination of whether the proponent established by
a preponderance of the evidence that the proffered witness “is sufficiently familiar
with the reputation” of the person. Id. (citing Ehrhardt, supra, § 609.1 (“[T]o be
admissible, the trial judge must find that the witness is in fact aware of the person’s
reputation and not the impression of one or two individuals or the personal opinion
of the witness.”)).
At trial, defense counsel proffered the testimony of Ms. Crain concerning: (1)
Hall’s alleged reputation for violence toward men who allegedly abuse women; and

Page 32 of 63

A-45

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 33 of 63

(2) Hall’s alleged commission of specific acts of violence. (Doc. 15-29, Ex. 42 at
1462-65). Ward’s claim here concerns only the proffered reputation evidence.
On direct examination, Ms. Crain testified:
Q [Defense Counsel Mr. Thomas]
Okay. Now, based on
your living here in Milton all of those years did you know what Joe
Hall’s reputation was for peacefulness or violence against young men,
who he believed abused women?
A

Yes.

Q

And what was that?

A

He was very much a protector of women. He –

Q
And towards the young men, who abused them, what was
his reputation?
A
He didn’t really stand for that at all. He – he was very
outspoken about how he didn’t feel that it was right, and he would get
very angry about it.
Q

But so as far as peacefulness or violence?

A

He’s very peaceful towards women.

Q

And what about towards the young men?

A

Not so much.

Q

Pardon me?

A

Not so much.

(Doc. 15-29, Ex. 42 at 1448).
Page 33 of 63

A-46

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 34 of 63

During cross-examination, the State elicited testimony from Ms. Crain that
her knowledge of Hall’s purported reputation was not gained from a broad-based
knowledge of the community’s opinion of Hall’s reputation, but rather from her
personal experience with Hall concerning an incident between herself and her then
boyfriend Josh Laird. (Doc 15-29, Ex. 42 at 1450-52, through Doc. 15-30, Ex. 42 at
1453-56). Crain also admitted that during that personal experience, Hall never
actually threatened or physically approached Laird, and although she believed that
Hall may have slashed one of Laird’s tires, Hall was not violent with Laird himself.
(Doc. 15-30, Ex. 42 at 1454-55). The State also elicited testimony that Ms. Crain did
not know of Hall ever fighting or being physically violent to anyone. (Doc. 15-30,
Ex. 42 at 1455). The State concluded its cross:
Q
All right. As far as knowing his reputation, you don’t –
you don’t know him to have a reputation of actual violence to anyone
do you?
A [Ms. Crain]
Just spoke of it, of being protective of
women. I’ve never actually seen him.
Q
Okay. So he’d make statements that he might commit a
violent act to protect a woman?
A.

Yes.

Page 34 of 63

A-47

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 35 of 63

(Doc. 15-30, Ex. 42 at 1456). The trial court ruled: “At this time in the trial there’s
not a basis to present the testimony that’s being offered by Ms. Crain up to this
particular point.” (Id. at 1460).
Given this record a reasonable appellate attorney could conclude that the
defense lacked the proper foundation for Ms. Crain’s purported reputation
testimony. Moreover, even if appellate counsel believed he could argue in good faith
that the defense laid a sufficient predicate, appellate counsel reasonably could have
decided that the issue had little chance of success given the applicable standard of
review, namely, Florida’s abuse of discretion standard. See Johnson, 108 So. 3d at
708, 710 (applying Florida’s abuse of discretion standard to preserved error of
excluding proffered reputation evidence). “This standard of review rarely results in
relief because it requires affirmance of the trial court order unless no reasonable
judge could have reached the decision challenged on appeal.” Clark v. State, 95 So.
3d 986, 987 (Fla. 2d DCA 2012) (citing Canakaris v. Canakaris, 382 So. 2d 1197,
1203 (Fla. 1980)) (emphasis added). A reasonable appellate attorney, cognizant of
this burden, could decide that the reputation evidence claim was weak given the
entirety of Ms. Crain’s testimony, which reasonably could be perceived as lacking
true familiarity with the purported reputation of Hall in the “community,” as the
statute requires. Smith v. Murray, 477 U.S. at 536 (“Th[e] process of ‘winnowing
Page 35 of 63

A-48

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 36 of 63

out weaker arguments on appeal and focusing on’ those more likely to prevail, far
from being evidence of incompetence, is the hallmark of effective appellate
advocacy.”) (quoting Barnes, 463 U.S. at 751-52).
Because Ward has not shown that “no fairminded jurist could agree” with the
First DCA’s ruling on his ineffective assistance of appellate counsel claim, Ward is
not entitled to habeas relief. Bobby v. Dixon, 565 U.S. 23, 24 (2011) (reversing grant
of habeas relief when it was not clear that the state court “erred so transparently that
no fairminded jurist could agree with that court’s decision”).
Ground Four

Petitioner Ward’s constitutional due process right to a
fair trial was violated when the state trial court refused
to give a jury instruction that was consistent with his
theory of the case (self defense).

Ground Six

Petitioner Ward’s constitutional due process right to a
fair trial was violated when the state trial court
erroneously gave a jury instruction on the justifiable
use of deadly force that improperly imposed a duty to
retreat.

Ward raises due process challenges to two aspects of the jury instructions. He
alleges: (1) the trial court gave a standard instruction on the justifiable use of deadly
force that misstated Florida law by improperly imposing on him a duty to retreat;
and (2) the trial court erroneously refused to give his requested instruction on the
“presumption of fear” portion of Section 776.013(1), Florida Statutes. (Doc. 1 at 45Page 36 of 63

A-49

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 37 of 63

47, 50-53). Ward asserts that because a criminal defendant has a constitutional due
process right to jury instructions that accurately state the law, and because the
instructions in his case incorrectly stated the law of self-defense in Florida, the state
courts’ rejection of his claims were contrary to clearly established Federal law. (Id.
at 46-47, 50-53).
The State asserts that Ward copied these claims largely verbatim from his
initial brief on direct appeal, and that the First DCA summarily rejected them. (Doc.
15 at 49-50, 64). The State argues that the First DCA’s decision is an “adjudication
on the merits” entitled to deference under § 2254(d), and that Ward fails to carry his
burden under that standard because he does not present any explanation as to how
the state courts’ adjudication of his claim contravenes clearly established Federal
law. (Doc. 15 at 51). Rather, Ward concedes that the question of whether his jury
was accurately instructed on the law of self-defense in Florida is an issue of state
law, and merely continues to argue that the instructions failed to accurately reflect
Florida law. (Doc. 15 at 51 (quoting Doc. 1 at 46-47)). The State emphasizes that
the state courts are the final arbiters of state law. (Doc. 15 at 51-53, 64-65).

Page 37 of 63

A-50

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 38 of 63

A.

The First DCA’s summary affirmance is an “adjudication on
the merits” entitled to deference under 28 U.S.C. § 2254(d).

Ward’s contention that the First DCA’s decision does not qualify as an
“adjudication on the merits” under § 2254(d), because it is a per curiam affirmance,
is without merit for the reasons discussed above. See Richter, 562 U.S. at 99, 100;
see also discussion supra Ground One, Part A.
B.

Clearly Established Federal Law

“In a criminal trial, the State must prove every element of the offense, and a
jury instruction violates due process if it fails to give effect to that requirement.”
Middleton v. McNeil, 541 U.S. 433, 437 (2004) (citing Sandstrom v. Montana, 442
U.S. 510, 520-21 (1979)). A defendant claiming that the jury instructions violated
due process must show not only that the instructions were deficient, but also that
“the ailing instruction . . . so infected the entire trial that the resulting conviction
violates due process.” Estelle v. McGuire, 502 U.S. 62, 72 (1991) (internal quotation
marks and citation omitted). “A single instruction to a jury may not be judged in
artificial isolation, but must be viewed in the context of the overall charge.” McNeil,
541 U.S. at 437 (internal quotation marks and citations omitted). “If the charge as a
whole is ambiguous, the question is whether there is a ‘reasonable likelihood that

Page 38 of 63

A-51

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 39 of 63

the jury has applied the challenged instruction in a way that violates the
Constitution.’” McNeil, 541 U.S. at 437 (quoting McGuire, 502 U.S. at 72).
C.

Section 2254 Review of the State Court’s Decision

Ward alleges that the jury instruction on the justifiable use of deadly force
misstated Florida law because it imposed a duty on him to retreat. The wording Ward
takes issue with was part of the following instruction. The challenged language is
bolded:
As to both counts of the Information and the lesser included
offenses, an issue in this case is whether the defendant acted in selfdefense. It is a defense to the offenses with which Brandon Ward is
charged and to all lesser included offenses, if the death of Joe Hall and
the injury to Joseph Ruinato resulted from the justifiable use of deadly
force.
Deadly force means force likely to cause death or great bodily
harm. The use of deadly force is justifiable only if the Defendant
reasonably believes that the force is necessary to prevent imminent
death or great bodily harm to himself while resisting – resisting the
following. Let me put it like that – another’s attempt to murder him, or
any attempt to commit murder, aggravated battery, or felony battery
upon him.
....
A person is justified in using deadly force if he reasonably
believes that such force is necessary to prevent imminent death or great
bodily harm to himself, or the imminent commission of murder,
aggravated battery, or felony battery against himself.

Page 39 of 63

A-52

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 40 of 63

You are advised the crimes of murder, aggravated battery, and
felony battery have been previously defined in these instructions.
The defendant need only have a reasonable belief any one of
these offenses were about to occur.
However, the use of deadly force is not justifiable if you find that
Brandon Ward initially provoked the use of force against himself unless
the force asserted toward the defendant was so great that he reasonably
believed that he was in imminent danger of death or great bodily harm,
and had exhausted every reasonable means to escape the danger other
than using deadly force on Joseph Hall and/or Joseph Ruinato, or in
good faith the defendant withdrew from the physical contact with Joe
Hall and/or Joseph Ruinato, and clearly indicated to Joe Hall and/or
Joseph Ruinato that he wanted to withdraw and stop the use of deadly
force [b]ut Joe Hall and/or Joseph Ruinato continued or resumed the
use of force.
In deciding whether the defendant was justified in the use of
deadly force you must judge him by the circumstances by which he was
surrounded at the time the force was used.
The danger facing the defendant need not have been actual,
however, to justify the use of deadly force, the appearance of danger
must have been so real that a reasonably cautious and prudent person
under the same circumstances would have believed that the danger
could be avoided only through the use of that force. Based upon
appearances, the defendant must have actually believed that danger was
real.
If the defendant was not engaged in an unlawful activity and was
attacked at any place where he had a right to be, he had no duty to
retreat, and had the right to stand his ground and meet force with force,
including deadly force, if he reasonably believed that it was necessary
to do so to prevent death or great bodily harm to himself, or to prevent
the commission of murder, aggravated battery, or felony battery.
Page 40 of 63

A-53

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 41 of 63

(Doc. 15-32, Ex. 45 at 2082-84) (emphasis added). Ward argues (as he did on direct
appeal) that the emphasized language erroneously imposed on him a duty to retreat.
Ward contends that the challenged language does not appear in any statutes and is
not derived from case law.
The jury instruction, including the language Ward challenges, tracks the
language in Florida Standard Jury Instruction (Crim.) 3.6(f), Justifiable Use of
Deadly Force. The language in question makes no mention, or suggestion, of a duty
to retreat. Ward’s contrary interpretation ignores the overall charge and, in
particular, the portion that says:
If the Defendant was not engaged in an unlawful activity and was
attacked at any place where he had a right to be, he had no duty to retreat
and had the right to stand his ground and meet force with force
including deadly force if he reasonably believed that it was necessary
to do so to prevent death or great bodily harm to himself.
(Doc. 15-32, Ex. 45 at 2084) (emphasis added). This latter language tracks the
language regarding no duty to retreat in Section 776.013(3), Florida Statutes (2005),
in effect at the time of Ward’s trial.
The trial court gave the standard jury instruction 3.6(f) as approved by the
Florida Supreme Court. See In re Standard Jury Instructions In Criminal Cases (No.
2005-4), 930 So. 2d 612, 613-14 (Fla. 2006). Although the Florida Supreme Court
cautioned at that time that its approval of the instruction “express[ed] no opinion on
Page 41 of 63

A-54

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 42 of 63

the correctness of the instructions,” id. at 613, that court has since held that the
instructions correctly state Florida law. In State v. Floyd, 186 So. 3d 1013, 1020-21
(Fla. 2016), the Florida Supreme Court reviewed standard jury instruction 3.6(f), to
determine whether it “[i]s confusing, contradictory, or misleading with respect to the
duty to retreat when there is a question as to whether the defendant was the initial
aggressor.” Floyd, 186 So. 3d at 1019. The court held that the instruction “accurately
communicate[s] the law to the jury”, is not confusing, and “correctly guide[s] the
jury.” Id. at 1021-22. Given that the Florida Supreme Court has determined that the
precise instruction given here accurately states the law of self-defense in Florida,
Ward cannot show that the First DCA’s rejection of his due process claim is
inconsistent with Sandstrom or McGuire, supra. Ward is not entitled to habeas relief
on this claim.
Ward also contends that the trial court erroneously refused to read the
“presumption of fear” portion of the justifiable use of deadly force instruction
contained in Section 776.013(1), Florida Statues. Section 776.013(1) reads:
(1) A person is presumed to have held a reasonable fear of imminent
peril of death or great bodily harm to himself or herself or another when
using defensive force that is intended or likely to cause death or great
bodily harm to another if:
(a) The person against whom the defensive force was used
was in the process of unlawfully and forcefully entering, or had
Page 42 of 63

A-55

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 43 of 63

unlawfully and forcibly entered, a dwelling, residence, or
occupied vehicle, or if that person had removed or was
attempting to remove another against that person’s will from the
dwelling, residence, or occupied vehicle; and
(b) The person who uses defensive force knew or had reason
to believe that an unlawful and forcible entry or unlawful and
forcible act was occurring or had occurred.
Fla. Stat. § 776.013(1) (2005).
Ward claims that he was entitled to the “presumption” instruction, because at
the time he stabbed Mr. Hall and Mr. Ruinato, they were attempting to remove him
against his will from Ms. Sparling’s residence where Ward was an invited guest.
(Doc. 1 at 46).
The state trial court refused to give the “presumption” instruction because the
entire incident occurred outside the residence:
THE COURT:

He wasn’t in a residence.

MR. THOMAS [Defense Counsel]:
was the plan?
THE COURT:

I know it, Judge, but what

It says the defendant was in. He was in the

yard.
MR. THOMAS: I understand that, but they were – okay,
Judge. What we’re talking about is a theory here that they were going
to remove him from – they were [g]oing to remove from the residence
if he was in the residence. That’s the plan that they had. It doesn’t have
to succeed. It’s just what the plan was.
Page 43 of 63

A-56

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 44 of 63

THE COURT:
He wasn’t in the residence though. It doesn’t
matter what the plan was.
(Doc. 15-31, Ex. 44 at 1918). The trial court instead gave the remainder of the
instruction contained in Section 776.013:
(3) A person who is not engaged in an unlawful activity and who is
attacked in any other place where he or she has a right to be has no duty
to retreat and has the right to stand his or her ground and meet force
with force, including deadly force if he or she reasonably believes it is
necessary to do so to prevent death or great bodily harm to himself or
herself or to another or to prevent the commission of a forcible felony.
Fla. Stat. § 776.013(3) (2005).
The state court’s interpretation of Section 776.013(1) and conclusion that the
“presumption of fear” did not apply because the victims were not in a dwelling or
residence, or attempting to remove Ward from a dwelling or residence as those terms
are defined in Section 776.013(5), is a state-law determination this court will not
second-guess. 7 Ward has not shown that the state court’s refusal to give his requested
“presumption” instruction deprived him of his constitutional right to have the jury
correctly instructed on the law.

7

Even according to Ward’s testimony, he and the victims were outside the residence
near cars parked in the driveway when Ward stabbed the victims. (Doc. 15-30, Ex.
43 at 1670-83).
Page 44 of 63

A-57

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 45 of 63

To summarize, Ward has not shown that the jury instructions, viewed in their
entirety, inaccurately stated the law in Florida, much less that any error in the
instructions “so infected the entire trial” that his convictions violate due process.
McGuire, 502 U.S. at 72. Because Ward has not established that the First DCA’s
rejection of his jury instruction claims was contrary to, or an unreasonable
application of, clearly established Federal law, he is not entitled to habeas relief on
Ground Four or Six.
Ground Five

The prosecutor shifted the burden of proof and
violated Petitioner Ward’s constitutional due process
right to a fair trial when the prosecutor requested the
jury to find that Petitioner Ward was lying as the sole
test for determining the issue of guilt (i.e., a reason
other than that the prosecution has proved its case
beyond a reasonable doubt).

Ward claims that the prosecutor violated his right to due process when he
made these remarks in his closing arguments to the jury:
MR. ELMORE: You’ll decide who to believe in this case, and
the judge will tell you that is your job.
And you’ll decide if Samantha Sparling and Brandon Michael
Ward, who were lovers then, and who Samantha Sparling admits that
she still cares for the defendant, you’ll decide whether their story about
what Joe Hall did was credible or not.
....

Page 45 of 63

A-58

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 46 of 63

Now, you decide whether Brandon Ward’s story that Joe Hall
swung—and Samantha Sparling’s story that Joe Hall swung—you’ll
decide if that is credible. Or whether the testimony of Lacey Moores
and Joe Ruinato who no evidence has shown that they ever told any lies
about this. You’ll decide.
Now, you’ll decide whether any of the other things Brandon
Ward said are credible. You’ll decide if it is credible when he said,
“I didn’t talk with Samantha about inviting my Marine buddies over for
that party at their house. And I didn’t know that we were inviting Joe
Hall over.”
You decide. You decide, if his testimony is credible that did he
not [sic] hit Samantha Sparling. And there is [sic] eye witnesses and the
she [sic] admitted it. You’ll decide whether, when it was deathly quiet
and serene and peaceful at 2 in the morning, and he supposedly is
leaning against the back of his car right in front of the garage, that he
didn’t hear Charlie Zuccarello come out of the garage door, go out the
back garage door, come back in the back garage door, go back in the
side garage door.
You decide, if that is credible.
He was out there waiting. Okay.
You’ll decide whether he was there or whether he was hiding in
those bushes and then crouched down behind that truck watching Joe
Hall and Joey Ruinato and Samantha Sparling walk past him. And then
turned and followed them after Lacey Moores stopped him.
(Doc. 15-31, Ex 45 at 1972, 1986-87) (emphasis added). Ward claims that the
emphasized language “enunciated an erroneous and misleading statement of the
State’s burden of proof because it improperly asked the jury to determine whether
Petitioner Ward was lying as the sole test for determining the issue of guilt.” (Doc.
Page 46 of 63

A-59

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 47 of 63

1 at 48-49) (citing In re Winship, 397 U.S. 358, 364 (1970) (“[T]he Due Process
Clause protects the accused against conviction except upon proof beyond a
reasonable doubt of every fact necessary to constitute the crime with which he is
charged.”)). Ward asserts that he raised this claim in his direct appeal where he
“argued that the prosecutor shifted the burden of proof and violated his constitutional
due process right to a fair trial.” (Doc. 1 at 47).
The State asserts a procedural default defense. The State contends that,
although Ward’s counseled direct appeal brief challenged the prosecutor’s remarks,
Ward based his claim entirely on state law and did not argue that the remarks also
violated his constitutional right to due process. (Doc. 15 at 53-60 (discussing Ward’s
appellate brief, Doc. 15-45, Ex. 67, pp. 48-55)). Ward’s failure to “fairly present”
the state court with the federal due process claim he now asserts on habeas review
renders the claim procedurally defaulted. (Doc. 15 at 53-60). The State asserts that
even if this court deemed Ward’s federal due process claim properly exhausted, he
is not entitled to habeas relief because he fails to meet § 2254(d)’s demanding
standard. (Doc. 15 at 60-64).
A.

Exhaustion and Procedural Default

Before bringing a § 2254 habeas action in federal court, a petitioner must
exhaust all available state court remedies for challenging his conviction, 28 U.S.C.
Page 47 of 63

A-60

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 48 of 63

§ 2254(b)(1), thereby giving the state the “‘opportunity to pass upon and correct’
alleged violations of its prisoners’ federal rights.” Duncan v. Henry, 513 U.S. 364,
365 (1995) (quoting Picard v. Connor, 404 U.S. 270, 275 (1971) (citation omitted)).
The petitioner “must give the state courts one full opportunity to resolve any
constitutional issues by invoking one complete round of the State’s established
appellate review process.” O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999); Picard,
404 U.S. at 277-78.
“To satisfy the exhaustion requirement, the petitioner must have fairly
presented the substance of his federal claim to the state courts.” Picard, 404 U.S. at
277-78. A petitioner “fairly” presents the substance of his federal claim when he
describes the claim “such that [the state courts] are permitted the ‘opportunity to
apply controlling legal principles to the facts bearing upon his constitutional claim.’”
Kelley v. Sec’y Dep’t of Corr., 377 F.3d 1317, 1344 (11th Cir. 2004) (quoting Picard,
404 U.S. at 277); French v. Warden, Wilcox State Prison, 790 F.3d 1259, 1270-71
(11th Cir. 2015) (reaffirming that a habeas petitioner must “present his claims to the
state court ‘such that a reasonable reader would understand each claim’s particular
legal basis and specific factual foundation’”) (quoting Kelley, 377 F.3d at 1344-45).
Courts apply “fair presentation” principles “with common sense and in light of the
purpose underlying the exhaustion requirement—namely, giving the state courts ‘a
Page 48 of 63

A-61

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 49 of 63

meaningful opportunity’ to address the federal claim.” Lucas v. Sec’y, Dep’t of
Corr., 682 F.3d 1342, 1351 (11th Cir. 2012) (quoting McNair v. Campbell, 416 F.3d
1291, 1302 (11th Cir. 2005)).
“[A] petitioner with a claim that could arise under either state or federal law
must clearly indicate to the state courts that he intends to bring a federal claim.”
Preston v. Sec’y, Fla. Dep’t of Corr., 785 F.3d 449, 458 (11th Cir. 2015). A
petitioner does so by, for example, “includ[ing] in his claim before the state appellate
court ‘the federal source of law on which he relies or a case deciding such a claim
on federal grounds, or by simply labeling the claim “federal.”’” Lucas, 682 F.3d at
1351 (quoting Baldwin v. Reese, 541 U.S. 27, 32 (2004)); see also Snowden v.
Singletary, 135 F.3d 732, 735 (11th Cir. 1998) (concluding that petitioner’s federal
claims were “fairly presented” where he provided enough information about the
claims (and citations to Supreme Court cases) to notify the state court that the
challenges were being made on both state and federal grounds).
A petitioner does not satisfy the exhaustion requirement “merely by
presenting the state court with ‘all the facts necessary to support the claim,’ or by
making a ‘somewhat similar state-law claim.’” Lucas, 682 F.3d at 1352 (quoting
Kelley, 377 F.3d at 1343-44). Similarly, “a petitioner cannot ‘scatter some makeshift
needles in the haystack of the state court record. The ground relied upon must be
Page 49 of 63

A-62

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 50 of 63

presented face-up and squarely; the federal question must be plainly defined.
Oblique references which hint that a theory may be lurking in the woodwork will
not turn the trick.’” French, 790 F.3d at 1271 (quoting Kelley, 377 F.3d at 1345).
A claim that was not fairly presented to the state court and which can no longer
be litigated under state procedural rules is considered procedurally defaulted, i.e.,
procedurally barred from federal review. O’Sullivan, 526 U.S. at 839-40; Bailey v.
Nagle, 172 F.3d 1299, 1302-03 (11th Cir. 1999); Chambers v. Thompson, 150 F.3d
1324, 1326-27 (11th Cir. 1998) (holding that federal habeas courts should enforce
applicable state procedural bars even as to claims that were never presented to the
state courts). A petitioner seeking to overcome a procedural default must show cause
and prejudice, or a fundamental miscarriage of justice. Tower v. Phillips, 7 F.3d 206,
210 (11th Cir. 1993).
Although it is difficult to “pinpoint the minimum requirements that a habeas
petitioner must meet in order to exhaust his remedies,” McNair, 416 F.3d at 1302, it
is clear that Ward’s challenge to the prosecutor’s remarks on direct appeal did not
alert the state court that he was raising a federal due process claim. Ward labeled his
claim:

Page 50 of 63

A-63

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 51 of 63

ISSUE VII: THE TRIAL COURT ERRED IN NOT DECLARING A
MISTRIAL WHEN THE PROSECUTOR MADE
IMPROPER REMARKS IN CLOSING ARGUMENT.
(Doc. 15-45, Ex. 67 at 48). Ward summarized his claim as follows:
7. The trial court improperly denied a motion for mistrial based on the
prosecutor’s closing argument that shifted the burden of proof to the
defense. Throughout the prosecutor’s closing, he set up a decision
framework for the jury that improperly urged that a verdict could be
reached based on the credibility of the witnesses who gave
contradictory versions of circumstances surrounding the killing.
(Doc. 15-45, Ex. 67 at 19).
The body of Ward’s argument, which spanned seven pages, relied exclusively
on state law cases and discussed whether prosecutorial comments invited the jury to
convict the defendant for a reason other than his guilt of the crimes charged. (Doc.
15-45, Ex. 67 at 48-55). Ward did not mention, much less argue, the federal due
process standard for assessing whether allegedly improper prosecutorial comments
violated due process. See Darden, 477 U.S. at 181 (articulating the federal due
process standard—“whether the prosecutors’ comments ‘so infected the trial with
unfairness as to make the resulting conviction a denial of due process’”—and
cautioning that “the appropriate standard of review for such a claim on writ of habeas
corpus is ‘the narrow one of due process, and not the broad exercise of supervisory
power’”) (quoting Donnelly v. DeChristoforo, 416 U.S. 637, 642 (1974)). Ward did
Page 51 of 63

A-64

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 52 of 63

not cite a single federal case in support of his argument. Ward’s only reference to
federal law was buried in a string citation tacked onto this blanket statement:
A mistrial should have been granted. See, e.g., Art. I, Secs. 9, 16 Fla.
Const.; Amends. V, VI, XIV U.S. Const.; Gore v. State, 719 So. 2d
1197 (Fla. 1998); Bass v. State, 547 So. 2d 680 (Fla. 1st 1989); Chavers
v. State, 964 So. 2d 790 (Fla. 4th DCA 2007).
(Doc. 15-45, Ex. 67 at 49).
The Eleventh Circuit addressed a similar circumstance in McNair, supra. In
McNair, the petitioner claimed that the jury improperly considered extraneous
evidence during its deliberations. 416 F.3d at 1301. On direct appeal, McNair
couched his argument in terms of state law, with only two references to federal law:
a single federal district court case appearing in a seven-case string citation, and a
blanket statement in closing that both his federal and state constitutional rights were
violated. Id. McNair did not mention “the federal standard that extraneous evidence
is presumptively prejudicial,” nor did he cite “any United States Supreme Court or
federal appellate court case dealing with extraneous evidence.” Id. at 1303-04. The
Eleventh Circuit held that McNair failed to exhaust his federal claim, because the
gravamen of his claim, as presented to the state courts, dealt with state law. Id.
Here, as in McNair, Ward’s fleeting reference to “Amends. V, VI, XIV U.S.
Const.” did not fairly present a claim that the prosecutor’s comments so infected his
Page 52 of 63

A-65

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 53 of 63

trial with unfairness as to deprive him of his constitutional right to due process. See
Henry, 513 U.S. at 366 (“If a habeas petitioner wishes to claim that [a] ruling at a
state court trial denied him the due process of law guaranteed by the Fourteenth
Amendment, he must say so, not only in federal court, but in state court.”). Although
Ward urges this court to find that the state court’s decision was “contrary to and an
unreasonable application of Petitioner Ward’s constitutional due process rights.”
(Doc. 1 at 50). It would be problematic for this court to do so, however, because
Plaintiff presented neither a federal due process claim nor the Darden standard to
the state court. See Parker v. Matthews, 567 U.S. 37, 45-49 (2012) (identifying
Darden as the “clearly established Federal law” for purposes of prosecutorial
misconduct). As Darden emphasized, it is not enough that the prosecutor’s
comments were “improper,” “offensive,” “undesirable[,] or even universally
condemned.” Darden, 477 U.S. at 181. Rather, the prosecutor’s misconduct must
render the defendant’s conviction “fundamentally unfair.” Id. at 183. The state court
had no opportunity to consider that question. It is not “sufficient merely that the
federal habeas petitioner has been through the state courts, nor is it sufficient that all
the facts necessary to support the claim were before the state courts or that a
somewhat similar state-law claim was made.” Kelley, 377 F.2d at 1343-44 (citation
omitted).
Page 53 of 63

A-66

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 54 of 63

Ward’s failure to exhaust his federal due process claim in the Florida courts
renders it procedurally defaulted on habeas review. Ward makes none of the
requisite showings to excuse his procedural default. Ward’s procedural default,
therefore, bars habeas review of Ground Five.8
Ground Seven

The state trial court erred by denying Petitioner
Ward’s motion for judgment of acquittal for the
attempted second-degree murder count.

Ward claims that the trial court erred when it denied his motion for judgment
of acquittal on Count 2—the attempted second degree murder of Mr. Ruinato. Ward
explains that “the State’s evidence failed to establish that [he] committed an act
‘imminently dangerous to another and demonstrating a depraved mind’ in that there
was no proof [he] harbored ‘ill will, hatred, spite or an evil intent’ toward the victim
(Joe Ruinato).” (Doc. 1 at 53). Ward concludes that his “constitutional due process
rights were violated.” (Id. at 53-54) (citing Winship, 397 U.S. at 364) (holding that
the Due Process Clause of the United States Constitution “protects the accused
against conviction except upon proof beyond a reasonable doubt of every fact

8

Even if this court were to find Ward’s due process claim properly exhausted, he is
not entitled to habeas relief for the reasons outlined in the State’s answer, Doc. 15 at
60-64.
Page 54 of 63

A-67

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 55 of 63

necessary to constitute the crime charged”). Ward contends that the First DCA’s
affirmance of his conviction is inconsistent with Winship. (Id. at 53).
The State asserts a procedural default defense. The State contends that,
although Ward argued on direct appeal that there was insufficient evidence of “a
depraved mind,” he did not fairly present the claim as one of federal constitutional
dimension. Ward focused exclusively on what Florida courts consider to be indicia
of “ill will, hatred, spite or an evil intent,” which is one of Florida’s definitions of “a
depraved mind.” (Doc. 15 at 65-67). The State argues in the alternative that even if
Ward’s direct appeal brief were deemed to present a federal sufficiency of the
evidence claim, he is not entitled to habeas relief because he fails to meet § 2254(d)’s
demanding standard. (Doc. 15 at 66-72).
A.

Exhaustion and Procedural Default

Although Ward argues here that his sufficiency of the evidence claim involves
a violation of his constitutional right to due process established in Winship, supra,
he did not fairly present that federal claim to the state court in his direct appeal. On
direct appeal, Ward labeled his claim:
ISSUE V:

THE TRIAL COURT ERRED IN DENYING THE
MOTION FOR JUDGMENT OF ACQUITTAL ON THE
ATTEMPTED
SECOND
DEGREE
MURDER
CHARGED IN COUNT TWO, SINCE THE EVIDENCE
Page 55 of 63

A-68

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 56 of 63

WAS INSUFFICIENT TO PROVE THE ELEMENTS OF
SECOND DEGREE MURDER.
(Doc. 15-45, Ex. 67 at 48). Ward summarized his claim as follows:
5. Ward’s motions for judgement [sic] of acquittal to the attempted
second degree murder charge should have been granted. The State’s
evidence failed to prove that the attempted killing “evince[ed] a
depraved mind regardless of human life” in that there was no proof
Ward acted from “ill will, hatred, spite or an evil intent.”
(Doc. 15-45, Ex. 67 at 19).
Ward’s seven-page argument on the issue asserted that the State’s evidence of
“a depraved mind” was insufficient, because there was no evidence of “ill will,
hatred, spite or an evil intent” as defined by state law. (Doc. 15-45, Ex. 67 at 37
(quoting Marasa v. State, 394 So. 2d 544, 545 (Fla. 5th DCA 1981))). Ward
discussed six state law cases that determined the very narrow issue of whether the
evidence satisfied Florida’s standard of “ill will, hatred, spite, or evil intent.”9 (Doc.
15-45, Ex. 67 at 37, 39-42). Ward’s direct appeal brief did not cite a single federal
case, let alone Winship or Jackson v. Virginia. Ward did not reference the federal

9

Ward discussed Marasa, supra; Bellamy v. State, 977 So. 2d 682 (Fla. 2d DCA
2008); Poole v. State, 30 So. 3d 696 (Fla. 2d DCA 2010); McDaniel v. State, 620
So. 2d 1308 (Fla. 4th DCA 1993); Williams v. State, 674 So. 2d 177 (Fla. 2d DCA
1996); and Wiley v. State, 60 So. 3d 588 (Fla. 2011). (Doc. 15-45, Ex. 67 at 37, 3942).
Page 56 of 63

A-69

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 57 of 63

sufficiency of the evidence standard. The only time Ward alluded to federal law was
in the final sentence of his argument when he said:
As in the above cases, the State failed to prove that Ward acted with ill
will, hatred, spite or evil intent when he stabbed Ruinato. The evidence
is insufficient to support the conviction for attempted second degree
murder in violation of Ward’s right to due process. Art. I, Secs. 9, 16
Fla. Const.; Amend. V, VI, XIV U.S. Const.
(Doc. 15-45, Ex. 67 at 42-43). The “above cases” were the six state law cases.
The Eleventh Circuit has addressed “fair presentation” in the context of
federal sufficiency of the evidence claims. In Preston, supra, the habeas petitioner
claimed that the State failed to present sufficient evidence of premeditation at trial
and, therefore, his conviction for premeditated murder violated his due process rights
under Jackson v. Virginia. On direct appeal, however, Preston had claimed only that
the trial court erred by failing to grant his motion for judgment of acquittal because
there was insufficient evidence of premeditation. Preston, 785 F.3d at 453. Preston’s
appeal conceded that there was some evidence of premeditation, but argued that it
was solely circumstantial. Id. The Eleventh Circuit held that Preston failed to “fairly
present” his federal due process claim to the state courts. The court explained:
In his initial brief to the Florida Supreme Court, Preston simply claimed
that “the record . . . fails to contain sufficient evidence . . . of
premeditation.” He did not cite a single federal case, and relied instead
on a panoply of Florida cases discussing the element of premeditation,
as defined by state law. He never mentioned the federal Due Process
Page 57 of 63

A-70

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 58 of 63

Clause or, indeed, any other federal constitutional provision. . . .
Moreover, Preston did not cite Jackson v. Virginia, nor even mention
the Jackson standard for assessing sufficiency of the evidence
challenges.
Instead, Preston asserted in his brief that his conviction rested on
insufficient evidence, without clarifying whether he intended to bring a
federal or a state sufficiency of the evidence claim. . . . Preston invoked
a phrase common to both federal and state law without explaining
which body of law provided the basis for his claim. “Simply referring”
to sufficiency of the evidence “is not a sufficient reference to a federal
claim. . . .” The Florida Supreme Court could reasonably conclude (as
it undoubtedly did) that when Preston claimed the evidence used to
obtain his conviction was insufficient, he meant to challenge that
conviction on the basis of state law alone.
Id. at 458-59.
Here, as in Preston, Ward did not fairly present his federal Winship claim (or
a Jackson claim) to the state court. See Ramos v. Sec’y, Dep’t of Corr., 441 F. App’x
689, 696-97 (11th Cir. 2011) (holding that the petitioner did not fairly present his
federal sufficiency of the evidence claim to the state court when his direct appeal
brief made only a passing reference to his federal constitutional right to due process);
Pearson v. Sec’y, Dep’t of Corr., 273 F. App’x 847, 850 (11th Cir. 2008) (holding
that merely challenging the sufficiency of the evidence of reasonable fear on the part
of the victim was not sufficient in itself to alert the state court to the presence of a
federal due process claim); Cook v. McNeil, 266 F. App’x 843, 845-46 (11th Cir.
2008) (explaining that “the tenor of [petitioner’s] narrow arguments that challenged
Page 58 of 63

A-71

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 59 of 63

the characterization of his knife and the sequence of his actions under the Florida
statute did not bring a federal claim about due process to the attention of the state
appellate court”). Fair presentation of a federal claim to a state appellate court
requires more. See McKinzie v. Sec’y, Dep’t of Corr., 265 F. App’x 858, 860 (11th
Cir. 2008) (holding that the district court erred in finding that petitioner’s federal
sufficiency of the evidence claim was unexhausted when petitioner clearly referred
to the federal due process reasonable doubt standard before the state court).
Ward’s failure to exhaust his federal sufficiency of the evidence claim renders
the claim procedurally defaulted. Ward makes none of the requisite showings to
excuse his default. Ward’s procedural default bars federal habeas review of Ground
Seven.10
Ground Eight

The cumulative effect of the errors in this case
deprived Petitioner Ward of a fair trial.

Ward’s final claim states in total:
All of the errors committed in Petitioner’s Ward’s case,
considered either individually or together, resulted in Petitioner Ward
being denied a fair trial. “Where no single error or omission of counsel,
standing alone, significantly impairs the defense, the district court may
nonetheless find unfairness and thus, prejudice emanating from the

10

Even if this court were to find that Ward exhausted his federal sufficiency of the
evidence claim, he is not entitled to habeas relief for the reasons outlined in the
State’s answer, Doc. 15 at 67-72.
Page 59 of 63

A-72

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 60 of 63

totality of counsel’s errors and omissions.” Ewing v. Williams, 596 F.2d
391, 396 (9th Cir. 1979). See also Cargle v. Mullen, 317 F.3d 1196,
1206-07 (10th Cir. 2003).
(Doc. 1 at 58).
The States asserts three defenses: (1) Ward’s claim of “cumulative effect” or
“cumulative error” does not provide a basis for federal habeas relief; (2) Ward’s
claim is procedurally defaulted because he did not present this claim to the state
courts; and (3) Ward’s claim fails on the merits. (Doc. 15 at 73-76).
Assuming to Ward’s benefit (without deciding) that a “cumulative error”
claim can provide an independent basis for habeas relief, Ward is not entitled to such
relief. First, Ward did not present the state court with a claim that the accumulation
of both trial counsel’s alleged errors and the trial court’s alleged errors denied him a
fair trial. Ward’s state-court cumulative error claim presented in his Rule 3.850
proceeding was based solely on trial counsel’s alleged errors. (Doc. 15-2, Ex. 1 at
97). Thus, his present claim is procedurally defaulted.
Second, even reviewing the portion of Ward’s claim that was exhausted (the
cumulative effect of trial counsel’s alleged errors), that claim has no merit because
Ward failed to show that his trial counsel erred, as discussed in Grounds One and
Two above. See Insignares v. Sec’y, Fla. Dep’t of Corr., 755 F.3d 1273, 1284 (11th
Cir. 2014) (“Because we have found no error . . . Insignares has failed to show that
Page 60 of 63

A-73

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 61 of 63

the state judge lacked a reasonable basis to deny his cumulative-error claim.”);
Morris v. Sec’y, Dep’t of Corr., 677 F.3d 1117, 1132 (11th Cir. 2012) (concluding
that there can be no cumulative error where there is no individual error).
Ward is not entitled to habeas relief on Ground Eight.
IV.

Certificate of Appealability is Not Warranted
Rule 11(a) of the Rules Governing Section 2254 Cases in the United States

District Courts provides: “[t]he district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.” If a certificate is
issued, “the court must state the specific issue or issues that satisfy the showing
required by 28 U.S.C. § 2253(c)(2).” 28 U.S.C. § 2254 Rule 11(a). A timely notice
of appeal must still be filed, even if the court issues a certificate of appealability.
See 28 U.S.C. § 2254 Rule 11(b).
“[Section] 2253(c) permits the issuance of a certificate of appealability only
where a petitioner has made a ‘substantial showing of the denial of a constitutional
right.’” Miller-El, 537 U.S. at 336 (quoting 28 U.S.C. § 2253(c)). “At the COA stage,
the only question is whether the applicant has shown that ‘jurists of reason could
disagree with the district court’s resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to deserve encouragement to

Page 61 of 63

A-74

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 62 of 63

proceed further.’” Buck v. Davis, 580 U.S. —, 137 S. Ct. 759, 774 (2017) (quoting
Miller-El, 537 U.S. at 327). As the Supreme Court has stated:
When the district court denies a habeas petition on procedural grounds
without reaching the prisoner’s underlying constitutional claim, a COA
should issue when the prisoner shows, at least, that jurists of reason
would find it debatable whether the petition states a valid claim of the
denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (emphasis added). Here, Petitioner has
not made the requisite demonstration. Accordingly, the court should deny a
certificate of appealability in its final order.
The second sentence of Rule 11(a) provides: “Before entering the final order,
the court may direct the parties to submit arguments on whether a certificate should
issue.” 28 U.S.C. § 2254 Rule 11(a). If there is an objection to this recommendation
by either party, that party may bring such arguments to the attention of the district
judge in the objections permitted to this report and recommendation.
V.

Conclusion
For

the

reasons

set

forth

above,

RECOMMENDS that:

Page 62 of 63

A-75

the

undersigned

respectfully

Case 3:17-cv-00407-MCR-MJF Document 31 Filed 10/10/19 Page 63 of 63

1.

The petition for writ of habeas corpus (Doc. 1), challenging the

judgment of conviction and sentence in State of Florida v. Brandon Michael Ward,
Santa Rosa County Circuit Court Case No. 2006-CF-911, be DENIED.
2.

The District Court DENY a certificate of appealability.

3.

The clerk of the court close this case.

At Panama City, Florida, this 10th day of October, 2019.
/s/ Michael J. Frank
Michael J. Frank
United States Magistrate Judge
NOTICE TO THE PARTIES
Objections to these proposed findings and recommendations must
be filed within fourteen (14) days after being served a copy thereof.
Any different deadline that may appear on the electronic docket is
for the court’s internal use only, and does not control. A copy of
objections shall be served upon all other parties. If a party fails to
object to the magistrate judge’s findings or recommendations as to
any particular claim or issue contained in a report and
recommendation, that party waives the right to challenge on appeal
the district court’s order based on the unobjected-to factual and
legal conclusions. See 11th Cir. Rule 3-1; 28 U.S.C. § 636.

Page 63 of 63

A-76

